Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medical Equipment Suppliers
      Compliance With Medicare Standards




                           AUGUST 2001
                          OEI 04-99-00670
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them.
This statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches
to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:



Lisa Keating, Lead Analyst

Peggy Daniel, Program Analyst

Robert Gibbons, Program Analyst

Barbara Tedesco, Statistician

Joe Townsel, Team Leader

Stuart Wright, Program Specialist





To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                                   EXECUTIVE SUMMARY

PURPOSE

         To determine whether or not durable medical equipment suppliers who received a
         supplier number in 1999 were in compliance with Medicare standards.

BACKGROUND

         To receive reimbursement from Medicare, business organizations who supply durable
         medical equipment to Medicare beneficiaries must obtain a unique identifying number.
         That number is referred to as a durable medical equipment supplier number. The Centers
         for Medicare and Medicaid Services contract with the National Supplier Clearinghouse in
         Columbia, South Carolina, to approve applications for durable medical equipment
         supplier numbers.

         To obtain approval for a durable medical equipment supplier number, suppliers must
         demonstrate that they meet 11 Medicare standards.

         Because of concerns that durable medical equipment suppliers were not complying with
         the Medicare standards, CMS initiated a pilot program in 1996 to do site inspections
         before granting a durable medical equipment supplier number. In 1997, the Office of
         Inspector General reported that suppliers were only fully meeting one of the 11 standards.
         The report further showed that in some instances suppliers were not operating legitimate
         businesses.

         Partly in response to its pilot program, and the OIG report, CMS and the National
         Supplier Clearinghouse expanded its pilot program to include physical site inspections of
         suppliers in all States before granting a supplier number. Our present inspection provides
         an assessment on how well suppliers meet the standards after CMS fully expanded its site
         inspection program in 1999.


FINDINGS

         Less Than One Percent of Suppliers Did Not Have a Physical Presence at Their
         Business Address of Record

         In our 1997 inspection on supplier compliance with Medicare standards, we reported that
         7 percent of suppliers and applicants were not doing business at their address of record.
         Supplier failure to have a presence at their address of record raised serious questions
         about the legitimacy of their business. However, our current inspection showed that only
         one of 165 suppliers (.61 percent) were not located at and doing business at the address

                                                             1
Medical Equipment Suppliers: Compliance with Medicare Standards                        OEI-04-99-00670
         they had provided to the National Supplier Clearinghouse. Based on our referral, the
         National Supplier Clearinghouse revoked the supplier number for that supplier.

         All Suppliers Complied With Delivery, Warranty, Repairs, Returns, Complaints
         and Disclosing Ownership Standards

         Some Suppliers Failed to Comply With Inventory, Liability Insurance and
         Licensure Standards

         C         Five percent of suppliers did not have an inventory of durable medical equipment.

         C         Eight percent of suppliers did not have appropriate liability insurance. 

         C         Thirteen percent of suppliers did not have appropriate licensure.


         Fifty Percent of Suppliers Did Not Comply With Standard to Provide Consumer
         Information

         Medicare standards required DME suppliers to provide a list of the 11 Medicare
         standards to beneficiaries. Fifty percent of DME suppliers did not meet the standard.


RECOMMENDATIONS

         The physical site inspections of suppliers before granting a DME supplier number has
         improved compliance with Medicare standards. If CMS desires a higher compliance
         rate, we offer the following suggestions.

         C	        CMS and the NSC could implement efforts to educate suppliers about the
                   requirement to provide beneficiaries a list of supplier standards. This could be
                   done in their letter transmitting a number to an approved supplier. The NSC
                   could emphasize compliance with Medicare supplier standards, which are
                   included in the package accompanying the letter. Such education would help
                   assure that beneficiaries know their rights and supplier obligations to them.

         C	        CMS could revise its standards to require suppliers to transmit a copy of the
                   Medicare supplier standards to each beneficiary at the time of each sale or rental.

         C	        CMS and the NSC could institute random, unannounced site inspections of
                   supplier operations. Such inspections should be made at times other than the time
                   of initial enrollment or reenrollment.

         Enforcing full compliance with each standard is difficult and could be cost prohibitive.
         In our 1997 report, we recommended that CMS charge suppliers an application fee. We
         did not assess the benefits of such a fee in our present inspection. However, we continue




                                                             2
Medical Equipment Suppliers: Compliance with Medicare Standards                           OEI-04-99-00670
         to believe such fees would help assure that only legitimate DME suppliers are approved
         for a Medicare number. Further, the fees would help offset CMS’ cost of doing site
         inspections to assure that suppliers comply with all Medicare standards.

Agency Comments

         The CMS concurred with our findings. CMS outlined several initiatives that we believe
         respond to our recommendations. First, CMS plans to increase site visits on suppliers
         that do not comply with standards, and to reward those that pass. Additionally, CMS
         plans to assess the impact of the new supplier standards. Finally, during their site
         inspections, CMS compliance inspectors are also charged with educating suppliers on
         requirements to provide beneficiaries with a copy of the Medicare DME supplier
         standards. The full text of CMS’ comments are presented in Appendix E.




                                                             3
Medical Equipment Suppliers: Compliance with Medicare Standards                      OEI-04-99-00670
                                       TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


         Less Than One Percent of Suppliers Had No Physical Presence at Business Address of

         Record . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         All Suppliers Complied With Delivery, Warranty, Repairs, Returns, Complaints and

         Disclosing Ownership Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Some Suppliers Failed to Comply With Inventory, Liability Insurance and Licensure

         Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         Fifty Percent of Suppliers Failed the Standard to Provide Consumer Information . . . . . 13


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES

    A: Supplier Standards at Time of our Fieldwork . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         B: New Supplier Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         C: Locations of Site Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         D: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


         E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





                                                                      4

Medical Equipment Suppliers: Compliance with Medicare Standards                                                               OEI-04-99-00670
                                            INTRODUCTION

PURPOSE

         To determine whether or not durable medical equipment suppliers who received a
         supplier number in 1999 were in compliance with Medicare standards.

BACKGROUND

Approving DME Suppliers for Medicare

         To receive reimbursement from Medicare, business organizations who supply durable
         medical equipment (DME) to Medicare beneficiaries must obtain a unique identifying
         number. That number is referred to as a DME supplier number. The Centers for Medicare
         and Medicaid Services (CMS)1 contracts with the National Supplier Clearinghouse
         (NSC) in Columbia, South Carolina, to approve applications for DME supplier numbers.

         CMS defines durable medical equipment as that which can withstand repeated use, is
         primarily used to serve a medical purpose, is generally not useful to a person in the
         absence of illness or injury, and is appropriate for use in the home. For coverage under
         Medicare Part B, DME must be furnished for use in a beneficiary’s home. For the
         purpose of this report, when we refer to DME suppliers, we include suppliers of
         prosthetics, orthotics, and other medical supplies.

DME Supplier Standards

         To obtain NSC approval for a DME supplier number, suppliers must demonstrate that

         they meet 11 Medicare standards required by Section 1834 of the Social Security Act.

         The standards require that suppliers 


         C    fill orders from their own inventory or under a contractual arrangement,

         C    oversee delivery of equipment,

         C    answer questions and complaints from beneficiaries,

         C    maintain and repair rental equipment,

         C    maintain a physical address at the business site,

         C    comply with State and Federal licensure requirements,

         C    honor warranties on equipment,

         C    accept the return of substandard equipment,

         C    disclose consumer information (a list of standards) to beneficiaries,

         C    comply with ownership disclosure provisions of the Social Security Act, and

         C    have appropriate liability insurance.


         1
          Formerly the Health Care Financing Administration

                                                              5
Medical Equipment Suppliers: Compliance with Medicare Standards                        OEI-04-99-00670
         The supplier standards are front-end measures. They provide minimal assurance that
         suppliers physically exist and are operating a legitimate business. A detailed statement of
         each standard is shown in Appendix A.

         DME suppliers must reenroll every 3 years for participation in Medicare. The
         reenrollment process is similar to the new application process, in that the NSC must
         assure that both existing and new suppliers meet the standards for Medicare participation.

Additional Supplier Standards

         In an effort to better assure that Medicare suppliers for DME are operating legitimate

         business, the CMS proposed nine additional supplier standards in January 1998. CMS

         required suppliers to achieve compliance with the new standards by December 2000. 

         This was about 4 months after we had completed our data collection for this report. 

         Therefore, we do not address compliance with the nine additional standards in this report. 

         The standards require that suppliers


         C    comply with Medicare law,

         C    make no material misrepresentations on their application,

         C    provide documentation of compliance with standards to CMS upon request,

         C    notify beneficiaries that they may rent or purchase certain items,

         C    ensure application is signed by someone whose signature binds the supplier,

         C    agree not to transfer or reassign a supplier number,

         C    have a business phone at the facility, and a listing in the phone directory,

         C    agree not to telemarket to beneficiaries, except in limited circumstances, and

         C    receive payment in their own name for drugs used with DME.


         A detailed statement of each standard is shown in Appendix B. 


DME Supplier Compliance With Medicare Standards

         Because of concerns that DME suppliers were not complying with the Medicare
         standards, and in some instances were not operating legitimate businesses, CMS initiated
         efforts in 1996 to improve the process for granting DME supplier numbers. Through the
         NSC, CMS began a pilot program to physically inspect suppliers in one State before
         approving them for a DME supplier number.

         In 1997, the OIG completed an inspection documenting the extent that suppliers who
         obtained a DME supplier number operated bona fide businesses.2 That report showed
         that many existing suppliers and new supplier applicants were not in compliance with
         Medicare supplier standards. For example, 41 percent of suppliers and 40 percent of new
         applicants failed to meet at least one of the standards.


         2
          “Medical Equipment Suppliers: Assuring Legitimacy” (OEI-04-96-00240)

                                                             6
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
         Partly in response to the OIG recommendations and the results of its pilot test, CMS and
         NSC expanded the physical site inspections through a contract with ChoicePoint, Inc. 3
         The expansion of site visits was phased in over the next 4 years. By 1999, the NSC was
         using site inspections of DME suppliers in all 50 States as part of the process for assuring
         compliance with Medicare standards before granting a DME supplier number.

METHODOLOGY

         In 1999, about 12,682 DME suppliers nationwide obtained a Medicare supplier number.
         For our inspection, we reduced that universe to 4,927 independent suppliers. We
         included free standing suppliers, independent drug stores, and small drug store chains
         (those with under 25 business locations).

         We excluded large chain stores such as K-Mart, Wal-Mart, and Kroger who frequently
         provide DME as part of their business. Many chain stores such as those have a pharmacy
         as part of their business and the DME would be included in that part of the operation.
         Likewise, we excluded large chain drug stores such as Eckerd, CVS Pharmacy, and
         Walgreen’s. Finally, we excluded physician practices that also supply DME as part of
         their business. We excluded such DME suppliers because our preinspection showed that
         such suppliers were more likely to comply with the Medicare standards -- particularly the
         requirement to have an appropriate physical address.

Data Collection

         From the reduced universe of 4,927 DME suppliers, we randomly selected 16 clusters of
         suppliers nationwide. We used a cluster sampling strategy to control the travel costs of
         our inspection and still assure geographic coverage. We initially included each supplier
         in the 16 clusters for our inspection -- a total of 208 suppliers.

         We then reduced our sample size by excluding any suppliers that were a part of a large
         chain operation and had inadvertently been included. We further excluded suppliers who
         were under investigation by CMS or OIG, and suppliers who no longer had an active
         DME supplier number. Our final sample size was 165 suppliers, encompassing 16 States.
         Appendix C shows the geographic coverage of our sample.

         For each member of our sample, we conducted an unannounced site inspection at the
         business location shown in the NSC records. At each site, we determined whether or not
         suppliers were meeting the 11 Medicare standards. We did so by physical observation of
         supplier operations, interviews with owners and staff, and record reviews.

         We relied on supplier self-reports to determine compliance with some standards. For
         example, we asked suppliers whether they had received any complaints from
         beneficiaries. Likewise, we asked suppliers whether they had repaired equipment under a

         3
           A national company that contracts to provide prevention and risk management to the insurance industry, as well as
other industries

                                                               7
Medical Equipment Suppliers: Compliance with Medicare Standards                                                 OEI-04-99-00670
         warranty. If they said no, we relied on their self-reported answer. If they said yes, we
         asked to see and reviewed documentation on the complaints and warranty repairs.

         In some instances, we were unable to determine whether a supplier met a specific
         standard. For example, if the business was closed or a spokesperson for the supplier was
         not available, we were only able to assess whether the supplier had an appropriate
         physical location. Since we were unable to test compliance with all standards at each
         location, our projections of compliance rates are based on the number of suppliers
         complying with each standard individually.

         To understand supplier application policies, processes, and outcomes, we also
         interviewed staff at CMS, NSC, and ChoicePoint, Inc.

         Our cluster sampling method allowed us to project the extent that our universe of 4,927
         suppliers complied with the 11 Medicare standards. However, our selection method did
         not enable us to directly compare our results to the results of our 1997 report. Our 1997
         inspection was not based on random sampling methods. For that study, we
         judgementally selected suppliers located in large urban areas across the United States.
         We also focused on urban areas that were traditionally associated with high incidence of
         Medicare fraud.

Data Analysis

         We aggregated our on-site inspection results to determine how many suppliers in our
         sample met and did not meet each standard.

         Based on our sample results, we estimated the national proportion of suppliers that were
         not complying with each standard.

         Appendix C provides confidence intervals for estimates of noncompliance.
                              _____ ____ ____ _____

         We conducted our inspection between November 1999 and February 2001. We
         conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




                                                             8
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
                                                                  FINDINGS

         Fifty-six percent of suppliers were in compliance with all 11 Medicare standards. Only 8
         percent of suppliers failed to comply with more than one Medicare standard. However,
         44 percent of suppliers were out of compliance with at least one Medicare standard.

         One standard requires suppliers make a list of all 11 supplier standards available to
         beneficiaries. For this standard, the noncompliance rate was 50 percent. For another 4
         standards, the noncompliance rate was 13 percent or less. The suppliers fully met the
         remaining 6 of 11 standards in effect at the time of our review.


                                               Noncompliance Rates for Supplier Standards

                                          Physical Address
                                                Inventory
            Supplier Standards




                                        Liability Insurance
                                                 Licensure
                                        Supplier St andards
                                     Delivering Equipment

                                               Warrant ies
                                  Maintenance and Repair
                                                   Ret urns
                                 Quest ions and Complaint s
                                        Disclosing Owners

                                                              0   10     20       30   40   50   60   70   80    90     100


                                                                       Percent of Suppliers out of Compliance




Less Than One Percent of Suppliers Did Not Have a Physical
Presence at Their Business Address of Record
         One Medicare standard requires a supplier to have an appropriate physical address to
         conduct business. One of the 165 suppliers in our sample (.61 percent) did not have a
         physical presence at their business address of record. The building at the listed address
         was unoccupied. We observed no evidence that the supplier was ever there.

         We can logically assume the supplier was previously doing business at the listed address.
         ChoicePoint inspectors verified the existence of a supplier business before the NSC
         approved the supplier’s application for a DME supplier number. However, neighboring

                                                                              9
Medical Equipment Suppliers: Compliance with Medicare Standards                                                 OEI-04-99-00670
         business operators were unaware that any supplier business had ever existed at the listed
         address.

         The supplier had not notified the NSC of any recent change of address, and continued to
         bill the Medicare program through the date of our fieldwork, in September 2000.

         Because their business operation could not be observed at their address of record, we
         could not determine that they were a legitimate business. Accordingly, we referred the
         supplier to the NSC for review. The NSC did a follow-up review to determine their
         current status. After confirming our observations, the NSC revoked the supplier number
         for this supplier.

         Projected to the population of suppliers from which our sample was drawn, the .61
         percent would equal about 30 suppliers.

         In our 1997 inspection on supplier compliance with Medicare standards, we reported that
         7 percent of suppliers and applicants were not doing business at their address of record.
         Supplier failure to have a presence at their address of record raised serious questions
         about the legitimacy of their business. We cannot directly compare those results to our
         current study results due to differences in methodology.

All Suppliers Complied With Delivery, Warranty, Repairs,
Returns, Complaints and Disclosing Ownership Standards
         We discuss each of the Medicare standards below to show common practices by suppliers
         to meet them. In many instances, we relied on self-reported compliance with the
         standards. The Medicare standards did not require suppliers to maintain documentation
         of their compliance with the standards. However, we reviewed documentation and
         observed supplier operations to corroborate self-reported compliance where records were
         available and actual business operations were underway.

Suppliers had a System for Delivering Equipment

         This standard requires suppliers to deliver DME items to beneficiaries and to oversee
         delivery of items ordered from other suppliers on behalf of a beneficiary. All suppliers
         had a system for delivering equipment as required by the standard.

         We based our conclusion that suppliers were complying with this standard on discussions
         with 138 of the 165 suppliers in our sample. We also corroborated our interviews by
         observing over the counter business transactions, delivery staff, and delivery trucks on
         the premises.

         To further verify that suppliers were meeting the delivery standard, we also tested the
         delivery standard by reviewing signed invoices or delivery tickets for one to three
         Medicare beneficiary claims during Calender Year 1999. We did this test at 65 suppliers
         -about 40 percent of the suppliers we interviewed. Although Medicare standards did not
         require it, our test showed that 86 percent could document delivery. The remaining 14

                                                             10
Medical Equipment Suppliers: Compliance with Medicare Standards                        OEI-04-99-00670
         percent could not document delivering DME for all claims we tested, but they could
         document deliveries for one or two of them.

Suppliers Honored Warranty Agreements

         The standard required suppliers to honor warranty agreements on DME equipment under
         applicable State law. Most suppliers said no beneficiaries had returned items under
         warranty. We tested for compliance with this standard at 123 of 165 suppliers. All
         suppliers told us their policy was to make or arrange for warranty repairs or replacements
         as needed. Only 5 suppliers could provide documentation of having made warranty
         repairs or replacements. However, the Medicare standards did not require
         documentation.

Suppliers Repaired Rented Durable Medical Equipment

         The standard required suppliers to repair DME that they rented to beneficiaries. They
         may repair the items themselves or contract for needed repairs. We tested compliance
         with this standard at 130 of 165 suppliers. Only 29 percent (38 of 130) of them rented
         DME equipment. All of them had provisions for repairing rented DME. Most of them
         repaired rented DME themselves. Only 4 suppliers said they had a contract to repair
         rented equipment.

Suppliers Accepted Returned Durable Medical Equipment and Supplies

         The standard required suppliers to accept returns of substandard or unsuitable items from
         beneficiaries. We were able to interview 116 of the 165 suppliers in our sample on this
         standard. Ninety-one of them said no beneficiary had attempted to return an item to them.
         The remaining 25 suppliers said they accepted returns of unsuitable items. While CMS
         did not require documentation on compliance with the Medicare standards, 7 of the 25
         had done so.

Suppliers Responded to Beneficiary Questions and Complaints

         The standard required suppliers to answer beneficiary questions and complaints about
         DME equipment. We tested for compliance with this standard at 127 of 165 suppliers.
         Suppliers seemed to be complying with this standard based on their comments to us.
         Most, however, said they only verbally responded to questions and complaints by
         beneficiaries about their DME and supplies. Some suppliers told us they actually
         documented complaints, and a few also documented questions.

Suppliers Disclosed Ownership

         This standard requires that suppliers disclose any persons or company with at least 5
         percent ownership interest in their business. We were able to test this standard at 137 of
         the 165 suppliers in our sample. All seemed to be complying with the standard.

         To test compliance with the standard, we asked for the identity of the principal business
         owners. We limited our onsite test to principal owners because on-site managers and


                                                             11
Medical Equipment Suppliers: Compliance with Medicare Standards                         OEI-04-99-00670
         employees could not logically be expected to know all ownership parties in a business.
         We did not require on-site persons we interviewed to refer to business records.

         We then compared the principal owners we identified through on-site interviews to those
         listed on the business application for a supplier number. In all instances, the principal
         owners we identified on-site agreed with those identified in the application.

Some Suppliers Failed to Comply With Inventory, Liability
Insurance and Licensure Standards
Five Percent of Suppliers did not have an Inventory

         This standard requires that suppliers have an inventory of DME and supplies onsite, or
         that they have a contract with another entity to provide them. Seven of 132 suppliers we
         inspected for this standard had no inventory or contract for supplying DME and supplies.

         However, suppliers out of compliance with this standard could still meet beneficiary
         demand for DME by ordering from a third party, on an as needed basis. In many cases,
         such suppliers directed that DME and supplies they ordered from a third party be shipped
         directly to the Medicare beneficiary. This is referred to as “just-in-time” ordering or drop
         shipping. For example, one supplier of wheelchairs in Illinois ordered products from a
         company in Florida, and the Florida company shipped directly to the beneficiary.

         For “just-in-time” and drop shipping arrangements, there was no formal contract. Thus,
         we considered suppliers with such arrangements out of compliance. However, we
         verified that such suppliers actually did furnish DME to beneficiaries. Where suppliers
         billed Medicare in 1999, we reviewed shipping records and similar documentation,
         showing equipment and supplies had been shipped to beneficiaries.

         We estimated 5 percent of the 4,927 suppliers nationwide were operating without having
         an inventory of equipment or supplies on site, and without a contract for inventory. This
         projects to 261 of the suppliers in our universe.

Eight Percent of Suppliers did not have Current Liability Insurance

         This standard requires suppliers to carry appropriate liability insurance. Appropriate
         insurance was not defined in the Medicare standard.

         In our sample, 8 percent (10 out of 125) of suppliers we inspected on this standard could
         not document they had current liability insurance. The NSC verifies liability insurance
         with the issuing insurance company as part of the application process. In the case of
         suppliers out of compliance with this standard, suppliers had liability insurance when
         they applied for a supplier number, but they had allowed it to lapse after obtaining their
         DME supplier number. For example, the expiration date on the insurance policy of a
         supplier in Oklahoma was April, 2000, about 6 months after the NSC had granted a DME
         supplier number.


                                                             12
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
         We estimated that 8 percent of suppliers were operating with no liability insurance,
         which amounts to 394 suppliers nationwide.

Thirteen Percent of Suppliers did not have Appropriate License

         The licensure standard requires that suppliers operate in compliance with all State and
         Federal licensure and regulatory requirements. The standard does not specifically require
         a local license, however, one is required on the application for a supplier number.
         Eighty-seven percent of suppliers had the appropriate business license.

         However, we estimated that 13 percent (18 of 137) of the supplier population was
         operating without a current license at the time of our inspection. Projected to the supplier
         population included in our sample, this equals about 640 DME suppliers.

         In several instances, a supplier had a current State business license, but the local license
         was expired. For example, one supplier in North Carolina had a current local license,
         however, the state license had expired about 15 months after the supplier was approved
         for a DME supplier number. The NSC verifies licensure at application and reenrollment,
         but has no system to assure that suppliers remain licensed during the three-year interim
         period between initial enrollment and reenrollment.

Fifty Percent of Suppliers Failed the Standard to Provide
Consumer Information
         One Medicare standard requires that suppliers make a list of all 11 Medicare supplier
         standards available to each beneficiary. The list of standards lets beneficiaries know the
         responsibilities of suppliers. The list also functions, in part, as a statement of beneficiary
         rights. For example, a beneficiary with a rented wheelchair could reference the list of
         standards and know that the supplier is responsible for repairs. Similarly, beneficiaries
         could look at the list and see that suppliers must accept the return of items which are
         substandard or unsuitable.

         Fifty-six of 112 suppliers we inspected for this standard, or 50 percent of suppliers
         nationwide, did not disclose the supplier standards to beneficiaries. Projected to our
         sample of 4,927 suppliers, this equals about 2,463 suppliers.

         Many suppliers told us they were not even familiar with the requirement. In one case, a
         supplier with a poster-size copy of the standards on the wall behind his desk claimed
         never to have heard of Medicare supplier standards. Of note, in our 1997 inspection, we
         also reported that suppliers most often failed to comply with the standard.




                                                             13
Medical Equipment Suppliers: Compliance with Medicare Standards                            OEI-04-99-00670
 CC                                  RECOMMENDATIONS

         We believe that DME supplier compliance with Medicare standards has improved
         substantially since our 1997 inspection. Because we used different methodologies, we
         cannot directly compare the results of this inspection to the results of our 1997
         inspection. However, the 1997 inspection showed varying levels of non-compliance with
         all standards except one. Our current inspection shows that the supplier noncompliance
         rate was relatively low or non-existent for all Medicare standards except one. Only one
         standard had a non-compliance rate greater than 13 percent.

         We believe that much of the improvement can be attributed to physical site inspections
         by an NSC contractor, ChoicePoint, Inc. If a supplier does not meet standards as
         documented by the ChoicePoint site inspection, the National Supplier Clearinghouse
         does not grant a Medicare supplier number. In many instances, noncompliance occurred
         after a supplier number was issued. In recognition of the value of onsite inspections, the
         NSC recently began performing site inspections on its own in one State.

         If CMS desires to further improve the compliance rate, however, we offer the following
         options for consideration.

         C	        CMS and the NSC could implement efforts to educate suppliers about the
                   requirement to provide beneficiaries a list of supplier standards. This could be
                   done in their letter transmitting a number to an approved supplier. The NSC
                   could emphasize compliance with Medicare supplier standards, which are
                   included in the package accompanying the letter. Such education would help
                   assure that beneficiaries know their rights and supplier obligations to them.

         C	        CMS could revise its standards to require suppliers to transmit a copy of the
                   Medicare supplier standards to each beneficiary at the time of each sale or rental.
                   This would enable beneficiaries to question suppliers and help enforce
                   compliance.

         C	        CMS and the NSC could institute random, unannounced site inspections of
                   supplier operations. Such inspections should be made at times other than the time
                   of initial enrollment or reenrollment.

         Enforcing full compliance with each standard is difficult and could be cost prohibitive.
         In our 1997 report, we recommended that CMS charge suppliers an application fee. We
         did not assess the benefits of such a fee in our present inspection. However, we continue
         to believe such fees would help assure that only legitimate DME suppliers are approved
         for a Medicare number. Further, the fees would help offset CMS’ cost of doing site
         inspections to assure that suppliers comply with all Medicare standards.


                                                             14
Medical Equipment Suppliers: Compliance with Medicare Standards                           OEI-04-99-00670
         Further, CMS’ additional supplier standards that became effective in December 2000
         should help enforce compliance with all DME standards. For example, the standards
         require suppliers to keep records on and document compliance with standards for rental
         repairs, warranty work, and notifying beneficiaries of a rental or purchase option. The
         standards also require suppliers to document that they furnish beneficiaries a copy of the
         supplier standards.

Agency Comments

         The CMS concurred with our findings. CMS outlined several initiatives that we believe
         respond to our recommendations. First, CMS plans to increase site visits on suppliers
         that do not comply with standards, and to reward those that pass. Additionally, CMS
         plans to assess the impact of the new supplier standards. Finally, during their site
         inspections, CMS compliance inspectors are also charged with educating suppliers on
         requirements to provide beneficiaries with a copy of the Medicare DME supplier
         standards. The full text of CMS’ comments are presented in Appendix E.




                                                             15
Medical Equipment Suppliers: Compliance with Medicare Standards                         OEI-04-99-00670
                                                                  APPENDIX A

       SUPPLIER STANDARDS IN EFFECT AT THE TIME OF OUR FIELDWORK
                        June through September 2000

1.	 A supplier will fill orders from its own inventory or inventory of other companies with which
    it has contracts to fill such orders; or fabricates or fits such items for sale from supplies it
    buys under contract.

2. 	A supplier is responsible to oversee delivery of Medicare covered items to Medicare
    beneficiaries.

3. A supplier honors all warranties, express or implied, under applicable State law.

4. 	A supplier will answer all questions or complaints a beneficiary has about an item or
    use of an item that is sold or rented to the beneficiary, and refers beneficiaries with Medicare
    questions to the appropriate carrier.

5. 	A supplier maintains and repairs directly, or through a service contract with another
    company, items it rents to a beneficiary.

6. 	A supplier accepts returns of substandard (less than full quality for a particular item)
    or unsuitable items (inappropriate for the beneficiary at the time it was fitted and/or sold)
    from the beneficiary.

7. 	A supplier discloses consumer information to each beneficiary with whom it does business.
    This consists of a copy of these supplier standards to which it must conform.

8. 	A supplier complies with the disclosure provisions in Title XI of the Social Security
    Act, section 1124(a).

9. 	A supplier must comply with all State and Federal licensure and regulatory
    requirements.

10. A supplier must maintain a physical facility on an appropriate site.

11. A supplier must have proof of appropriate liability insurance.




                                                             16
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
                                                                  APPENDIX B


                     SUPPLIER STANDARDS EFFECTIVE DECEMBER 2000

1. 	A supplier must operate its business and furnish Medicare covered items in compliance
    with all provisions of Medicare law.

2. 	A supplier must not make or cause to be made, any false statements or
    misrepresentation of a material fact on an application for a billing number.

3. 	A supplier must furnish various documentation to CMS upon request demonstrating
    compliance with supplier standards.

4. A supplier must notify a beneficiary that they may rent or purchase certain items.

5. 	A supplier’s application must be signed by an individual whose signature binds a
    supplier.

6. A supplier cannot convey or reassign a supplier number.

7. 	A supplier must maintain a primary business telephone at the physical facility. This
    telephone number must be listed under the name of the business in the business portion of the
    local telephone company directory. The exclusive use of a beeper number, answering service,
    pager, facsimile machine, car phone, or an answering machine may not be used as the
    primary business telephone for purposes of this regulation.

8. 	As required by sections 1834(a)(17)(A) and 1834(h)(3) of the Act, a supplier of
    a Medicare covered item must agree not to contact a beneficiary by telephone regarding the
    furnishing of a Medicare covered item to the individual unless the individual has given
    written permission, the supplier has furnished an item to the individual already, or the
    supplier is contacting the individual regarding a furnished item.

9. 	Only a supplier that is licensed to dispense the drug may bill for a drug used as a
    Medicare covered supply with durable medical equipment or prosthetic devices. A supplier
    must bill and receive payment for the drug in its own name.




                                                             17
Medical Equipment Suppliers: Compliance with Medicare Standards                         OEI-04-99-00670
                                                                        APPENDIX C

                                   LOCATIONS OF SITE INSPECTIONS
              STATE CITY                                          STATE CITY
              AZ            PARKER                                FL
    BOCA RATON

                            YUMA                                         CORAL GABLES

                                                                         DELRAY BEACH

              CA	           AUBURN                                       FT LAUDERDALE

                            BAKERSFIELD                                  MIAMI

                            BORREGO SPRINGS                              MIAMI BEACH

                            BRAWLEY                                      POMPANO BEACH

                            CHATSWORTH                                   SOUTH MIAMI

                            CHULA VISTA
                            EL CENTRO                             IA     DAVENPORT

                            GRASS VALLEY
                            HOLLYWOOD                             IL     CHICAGO HEIGHTS

                            HOLTVILLE                                    GENESEO

                            INDIO                                        HARVEY

                            LANCASTER                                    KANKAKEE

                            LOS ANGELES                                  LYNDON

                            N HIGHLANDS                                  MOLINE

                            NEWHALL                                      ORLAND PARK

                            OROVILLE                                     PEORIA

                            PALMDALE                                     POLO

                            PAUMA VALLEY                                 ROCK ISLAND

                            PORTERVILLE                                  TINLEY PARK

                            RIO LINDA                                    WALNUT

                            ROSEVILLE
                            TULARE                                IN     DEMOTTE

                            YUBA CITY                                    GRIFFITH

                                                                         HIGHLAND

              CT	           BRISTOL                                      MERRILLVILLE

                            CROMWELL                                     MUNSTER

                            EAST HARTFORD
                            EAST WINDSOR                          KS     SATANTA

                            GLASTONBURY
                            HARTFORD                              MS     ACKERMAN

                            NEWINGTON                                    CALHOUN CITY

                            PLAINVILLE                                   COLUMBUS

                            SIMSBURY                                     GRENADA

                                                                         KILMICHAEL

                                                                         LOUISVILLE

                                                                         SMITHVILLE

                                                                         STARKVILLE

                                                                         TUPELO





                                                             18
Medical Equipment Suppliers: Compliance with Medicare Standards                           OEI-04-99-00670
                                                                       APPENDIX C
                                                                        continued

              STATE CITY                                          STATE CITY
              NC            BUTNER                                OH    ACKRON
                            CARY                                        BEDFORD HTS
                            DURHAM                                      BROADVIEW HTS
                            MORRISVILLE                                 CLEVELAND
                            RALEIGH                                     GARFIELD HTS
                            ROXBORO                                     NORTH ROYALTON
                            WAKE FOREST                                 NORTHFIELD
                                                                        PARMA
              NJ            COLUMBUS                                    VALLEY VIEW
                            EAST BRUNSWICK                              WALTON HILLS
                            EAST WINDSOR
                            EDISON                                OK    ELK CITY
                            FREEHOLD                                    GRANDFIELD
                            HAMILTON                                    HYDRO
                            HAMMONTON                                   LAWTON
                            LAWRENCEVILLE                               WEATHERFORD
                            LITTLE EGG HARBOR                           WOODWARD
                            MARLTON
                            MATAWAN                               SC    CAYCE
                            MEDFORD                                     CHAPIN
                            MILLTOWN                                    COLUMBIA
                            MONROE                                      IRMO
                            OLD BRIDGE                                  LEESVILLE
                            PARLIN                                      PELION
                            PEMBERTON                                   WAGENER
                            PERTH AMBOY                                 WEST COLUMBIA
                            PRINCETON
                            SOUTH AMBOY                           TX    BORGER
                            SOUTH BRUNSWICK                             CANADIAN
                            TRENTON                                     SEYMOUR
                                                                        VERNON
              NV            LAUGHLIN                                    WHEELER




                                                             19
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
                                                                        APPENDIX D

                       POINT ESTIMATES AND CONFIDENCE INTERVALS

For those suppliers in our sample that did not meet the standards, we estimated the percentage of
the supplier population that was out of compliance. Our sample of 165 suppliers allows us to
predict noncompliance with 95 percent confidence. For example, we report 8 percent of all
suppliers did not have appropriate liability insurance. We are confident at the 95 percent level
that the actual population estimate lies between 3 and 13 percent.



                         Supplier Standard             Point Estimate   95% Confidence
                                                                           Interval

                          Physical address                    1%            0 - 4%

                               Inventory                      5%            1 - 9%

                          Liability insurance                 8%           3 - 13%

                        Appropriate licensure                13%           1 - 25%

                              Supplier
                        standards/Consumer                   50%           34 - 66%
                            information




                                                             20
Medical Equipment Suppliers: Compliance with Medicare Standards                          OEI-04-99-00670
                                                                   APPENDIX E

In this appendix, we present in full the comments from the Centers for Medicare and Medicaid
Services.




                                                             21

Medical Equipment Suppliers: Compliance with Medicare Standards                   OEI-04-99-00670
                                                             22
Medical Equipment Suppliers: Compliance with Medicare Standards   OEI-04-99-00670
